CASEY SOLOMON
ASSISTANT ATTORNEY GENERAL

(512) 936-1400
CASEY.SOLOMON@OAG.TEXAS.GOV

October 13, 2021
VIA ELECTRONIC FILING SYSTEM
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Feanyichi Ezekwesi Uvukansi v. Texas , No. 21-151;

Request for Extension of Time to File Brief in Opposition

Dear Hon. Harris:
My Office, the Attorney General of Texas, represents the State of Texas in the
above referenced appeal. By letter dated September 21, 2021, the Court asked
the State to file a brief in opposition to Petitioner’s petition for writ of
certiorari—presently due to be filed on or before October 21, 2021. Pursuant to
Rule 30.4, this is a request for a 32-day extension of time, up to and including
Monday, November 22, 2021, in which to file that brief.
An extension of time is needed because my Office was not involved in any of
the state-court litigation below. Instead, the Harris County District Attorney
represented the State, and only recently requested the assistance of my Office
for purposes of filing a brief in opposition. As a result, my Office has not yet
had sufficient time to examine the record below as it relates to Petitioner’s
challenged Texas conviction. And absent such review, I am not yet able to
determine the appropriate responses to the Questions Presented in the
petition.
I contacted Randolph L. Schaffer, Jr., counsel of record for Mr. Uvukansi, on
October 12, 2021—and Mr. Schaffer confirmed that he is not opposed to this
requested extension. A copy of this letter will also be emailed to Mr. Schaffer.

POST OFFICE BOX 12548 AUSTIN, TEXAS 78711-2548 TEL: (512) 463-2100 www.Texasattorneygeneral.Gov

An Equal Opportunity Employer ∙ Printed on Recycled Paper

Page |2

Thank you for your consideration of this matter.
Sincerely,

s/ Casey Solomon

CASEY SOLOMON
Assistant Attorney General
Supervising Attorney
for Non-Capital Appeals
Criminal Appeals Division
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
Telephone: (512) 936-1400
Facsimile: (512) 936-1280

cc:

Randolph L. Schaffer, Jr.
The Schaffer Firm
1021 Main, Suite 1440
Houston, TX 77002
noguilt@schafferfirm.com

